Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:

85443

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 8th day of December2020 deponent served 3 copies of the within
BRIEF IN OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Nicholas D. Acedo
Struck Love Bojanowski & Accede, PLC
3100 West Ray Road, Suite 300
Chandler, AZ 85226
480-420-1600

Attorneys for Petitioner

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on December 8, 2020, pursuant to Supreme
Court Rule 29.5[c). All parties required to be served, have been served.

~~<21~
Howard Daniels

Sworn to me this

December 8, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No.010S6101366
Qualified in Kings County
:om mission Expires November 10, 2023

Case Name: Shinn v. Jensen
Docket/Case No. 20-360

